      Department of Homeland Security




         Indiana’s Management of State Homeland 

     Security Program and Urban Areas Security Initiative 

        Grants Awarded During Fiscal Years 2008–2010 





OIG-13-45                                       February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      FEB 28 2013

MEMORANDUM FOR:              David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Indiana’s Management of State Homeland Security
                             Program and Urban Areas Security Initiative Grants
                             Awarded During Fiscal Years 2008–2010

Attached for your action is our final report, Indiana’s Management of State Homeland
Security Program and Urban Areas Security Initiative Grants Awarded During Fiscal Years
2008–2010. We incorporated the formal comments from the Federal Emergency
Management Agency and the State of Indiana in the final report.
The report contains five recommendations aimed at improving the overall effectiveness
of the State of Indiana’s management of State Homeland Security Program and Urban
Areas Security Initiative grants. Your office concurred with all five recommendations.
Based on information provided in your response to the draft report, we consider
recommendations 1 through 3 and 5 open and resolved, and recommendation 4 closed
and resolved. Once your office has fully implemented the four open recommendations,
please submit a formal closeout letter to us within 30 days so that we may close the
recommendations. The memorandum should be accompanied by evidence of
completion of agreed-upon corrective actions and of the disposition of any monetary
amounts.
Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 3


              Improvements Are Needed To Enhance the State of Indiana’s Grant
              Management Practices ........................................................................................... 3
              Recommendations ............................................................................................... 10
              Management Comments and OIG Analysis ......................................................... 11

   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 14 

              Appendix B:           FEMA Management Comments to the Draft Report .................... 18 

              Appendix C:           State of Indiana Management Comments to the Draft Report.... 21 

              Appendix D:           Description of Homeland Security Grant Program ....................... 27 

              Appendix E:           State of Indiana Homeland Security Districts ............................... 28 

              Appendix F:           Grant Transaction Flowchart ........................................................ 29 

              Appendix G:           Major Contributors to This Report ............................................... 30 

              Appendix H:           Report Distribution ....................................................................... 31 


   Abbreviations
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              GMS                   Grants Management Section
              GPD                   Grant Programs Directorate
              HSGP                  Homeland Security Grant Program
              IDHS                  Indiana Department of Homeland Security
              OIG                   Office of Inspector General
              SMART                 specific, measurable, achievable, results-oriented, and time-limited
              SHSP                  State Homeland Security Program
              UASI                  Urban Areas Security Initiative
              OIG                   Office of Inspector General



www.oig.dhs.gov                                                                                                                 OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Indiana.

   The objectives of the audit were to determine if the State of Indiana distributed and
   spent State Homeland Security Program and Urban Areas Security Initiative grant funds
   effectively and efficiently and in compliance with applicable Federal laws and
   regulations. We also addressed the extent to which grant funds enhanced Indiana’s
   ability to prevent, prepare for, protect against, and respond to natural disasters, acts of
   terrorism, and other manmade disasters. The audit included a review of approximately
   $57.3 million in State Homeland Security Program and Urban Areas Security Initiative
   grants awarded to Indiana during fiscal years 2008 through 2010.

   In most instances, the State of Indiana distributed and spent the awards in compliance
   with applicable laws and regulations. However, we identified several areas in which the
   Federal Emergency Management Agency (FEMA) and the State can improve management
   of State Homeland Security Program and the Urban Areas Security Initiative grants.
   Specifically, the State needs to revise its State Homeland Security Strategy and the
   Indianapolis Urban Area Homeland Security Strategy to include measurable objectives
   with realistic target dates for completion, obligate grant funds promptly, and monitor
   subgrantee compliance with inventory management requirements. Additionally, FEMA
   should ensure that the State closely monitors the obligation and expenditure of Urban
   Areas Security Initiative grants.

   As a result of the issues discussed in the report, the State (1) could not fully assess
   whether State Homeland Security Program and Urban Areas Security Initiative funding
   enhanced its preparedness and security; (2) may have negatively affected planning and
   delayed the expenditure of grant funds; (3) could not ensure that assets purchased with
   grant funds were adequately safeguarded to prevent loss, theft, or misuse; and (4) may
   have unnecessarily delayed improvements to the Indianapolis Urban Area’s
   preparedness and security. These issues existed because FEMA and the State of Indiana
   did not provide sufficient guidance and oversight of the grant process. We made five
   recommendations for FEMA to initiate improvements which, if implemented, should
   help strengthen grant program management, performance, and oversight. FEMA
   concurred with all five recommendations.




www.oig.dhs.gov                                 1                                        OIG-13-45
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. To support preparedness, FEMA
   develops policies, ensures that adequate plans exist and are validated, defines
   capabilities required to address threats, provides resources and technical assistance to
   States, and synchronizes preparedness efforts throughout the Nation. Appendix D
   provides a detailed description of the HSGP’s interrelated grant programs.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. The State Administrative Agency is the only entity eligible to apply for HSGP
   funds. FEMA requires that the State Administrative Agency be responsible for obligating
   grant funds to local units of government and other designated recipients within 45 days
   after receipt of funds. The Indiana Department of Homeland Security (IDHS) is the State
   Administrative Agency responsible for administering the HSGP. Within IDHS, the Grants
   Management Section (GMS) manages Federal grant funding awarded to Indiana for the
   advancement of homeland security initiatives, in accordance with the Indiana Strategy
   for Homeland Security.

   Federal regulations require that grantees monitor grant and subgrant-supported
   activities to ensure compliance with Federal requirements and achievement of
   performance goals. DHS guidance requires States to develop strategies that include
   objectives that set a target level of performance over time against which actual
   achievement can be compared. Further, objectives should be specific, measurable,
   achievable, results-oriented, and time-limited (SMART).

   FEMA awarded the State of Indiana more than $57 million in HSGP funds during fiscal
   years (FY) 2008, 2009, and 2010. This included $35.6 million in State Homeland Security
   Program (SHSP) grant funds and $21.7 million in Urban Areas Security Initiative (UASI)
   grant funds. Indiana has 92 counties that are divided into 10 Homeland Security
   Districts. Appendix E depicts the 10 Homeland Security Districts. IDHS awarded SHSP
   funds to subgrantees in various state agencies, counties, and local jurisdictions within
   the districts. IDHS also awarded UASI funds to its one urban area, the Indianapolis
   Urban Area, which includes the City of Indianapolis, and Marion and Hamilton Counties.
   Appendix A provides details on the audit objectives, scope, and methodology.




www.oig.dhs.gov                                2                                      OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
           Improvements Are Needed To Enhance the State of Indiana’s Grant
           Management Practices

           In most instances, the State of Indiana distributed and spent SHSP and UASI grant
           funds in compliance with applicable Federal laws and regulations. However, we
           identified four areas in which FEMA and the State can improve management of
           SHSP and UASI grant programs. Specifically:

           •	 The Indiana Strategy for Homeland Security (State strategy) and the
              Indianapolis Urban Area Homeland Security Strategy (urban area strategy)
              include some objectives that did not set measurable target levels of
              performance over time.

           •	 IDHS did not obligate grant funds within 45 days of receiving FEMA grant
              awards.

           •	 Subgrantees did not manage grant-funded equipment inventory according to
              Federal regulations or IDHS internal guidance.

           •	 FEMA did not ensure that IDHS closely monitored the obligation and
              expenditure of the 2008 UASI grant.

           As a result, the State (1) could not fully assess whether SHSP and UASI funding
           enhanced its preparedness and security; (2) may have negatively affected
           planning and delayed the expenditure of grant funds; (3) could not ensure that
           assets purchased with grant funds were adequately safeguarded to prevent loss,
           theft, or misuse; and (4) may have unnecessarily delayed improvements to the
           Indianapolis Urban Area’s preparedness and security.

           Measurable Performance

           Indiana’s State strategy and the urban area strategy include some objectives that
           do not set measurable target levels of performance over time. The State
           strategy contains several objectives that are not specific or measurable. Both
           strategies contained some objectives that omitted target dates for achieving the
           objectives. FEMA did not demonstrate that it provided the State with comments
           on its strategy, nor was there evidence to support its approval of either strategy.
           As a result, IDHS could not fully assess whether SHSP and UASI funding enhanced
           the preparedness and security of the State of Indiana.

www.oig.dhs.gov                                 3                                  	    OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to 44 Code of Federal Regulations (CFR) 13.40(a), Monitoring and
           Reporting Program Performance, grantees must monitor grant- and subgrant-
           supported activities to ensure compliance with applicable Federal requirements
           and achievement of performance goals. Furthermore, according to the
           Department of Homeland Security State and Urban Area Homeland Security
           Strategy Guidance on Aligning Strategies with the National Preparedness Goal,
           dated July 22, 2005, an objective sets a target level of performance over time
           against which actual achievement can be compared, including a goal expressed
           as a quantitative standard, value, or rate.

           The guidance also mandates that an objective be SMART. For example, specific
           objectives help identify what is to be achieved and accomplished. Measurable
           objectives must be quantifiable. Time-limited objectives should have a target
           date for achieving the objective.

           In its January 2010 assessment of Indiana’s February 2008 State strategy, IDHS
           itself noted that some of its objectives did not comply with the SMART guidelines
           outlined by DHS. According to the assessment, several of the objectives and
           associated measures were very difficult to evaluate because of their generic
           wording. The report suggested that future objectives and measurements be
           developed using the SMART standard.

           For example, under the strategy’s second goal, Planning and Risk Analysis,
           Objective 2.8 – Institutionalize the National Incident Management System,
           according to the IDHS assessment, “the program manager indicated that due to
           the importance of this program it should be retained in the next strategy
           however, the measure needs to be more specific/measurable.”

           Also, under the strategy’s third goal, Protect, Objective 3.1i – Implement a
           system that allows first responders access to building floor plans, IDHS noted
           that the program was no longer applicable and “determined to be unachievable
           due primarily to lack of a funding stream from the IDHS permitting process.”

           Both the February 2008 State strategy and the April 2007 urban area strategy
           contained some objectives and measures that were not time-limited. The State
           strategy contained 8 goals and 146 objectives to address the four mission areas
           and eight national priorities of the National Preparedness Guidelines. However,
           27 of these objectives did not include target dates for achieving the objective.
           Similarly, the urban area strategy, dated April 3, 2007, contained 8 goals and 53
           objectives, but 29 objectives had no target date for achievement.



www.oig.dhs.gov                                4                                       OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Congress has shown interest in FEMA’s efforts to develop metrics and measures
           for the HSGP grants. Under Public Law 111-271, Redundancy Elimination and
           Enhanced Performance for Preparedness Grants Act, Congress required the
           National Academy of Public Administration to assist FEMA in developing and
           implementing measurable national preparedness capability requirements and
           evaluation criteria. These requirements are to include a specific timetable for
           promptly developing a set of quantifiable performance measures and metrics to
           assess the effectiveness of the programs under which covered grants are awarded.

           FEMA did not demonstrate that it provided Indiana with comments on its State
           strategy. Although a FEMA program analyst said that FEMA reviewed and
           provided comments on all State strategies, the analyst did not provide us with
           any evidence of those comments to Indiana. Also, IDHS reported that FEMA did
           not provide feedback on Indiana’s State strategy.

           FEMA also did not approve either Indiana’s latest State strategy or the urban
           area strategy. FEMA provided the OIG team with a copy of the State strategy
           marked “Approved by FEMA” which showed many completion dates of 2005
           through 2008 for implementation steps. IDHS provided a State strategy dated
           February 6, 2008, which was an updated version of the strategy that FEMA
           provided. The 2008 document contained completion dates of 2008 through
           2010, and IDHS confirmed the strategy FEMA provided was not the most current
           version. IDHS also provided a copy of the urban area strategy dated April 3,
           2007. Neither IDHS nor the UASI could provide documentation showing that
           FEMA had approved either strategy.

           Without measurable goals and objectives in the State and urban area strategies,
           the State could not evaluate progress, compile key management information
           accurately, track trends, and keep planned work on track. Moreover,
           measurable goals and objectives would provide the State with a basis to evaluate
           its progress in improving preparedness, prevention, response, and recovery
           capabilities.

           Obligation of Grant Funds

           IDHS did not obligate SHSP and UASI grant funds within 45 days as required by
           DHS Homeland Security Grant Program Guidance and Application Kits for FYs
           2008, 2009, and 2010. The kits also contained the following requirements:

           •	 There must be some action to establish a firm commitment on the part of
              the awarding entity;


www.oig.dhs.gov                               5                                 	    OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           •	 The action must be unconditional (i.e., no contingencies for availability of
              funds) on the part of the awarding entity;
           •	 There must be documentary evidence of the commitment; and
           •	 The award terms must be communicated to the official grantee.

           We reviewed 36 awards that IDHS made to 10 local SHSP subgrantees from
           FY 2008 through FY 2010. Of these 36 awards, IDHS initially documented
           commitment of funds by issuing nine grant award letters. Three of the nine
           award letters were dated more than 45 days after IDHS received the award from
           FEMA. For the other 27 awards, IDHS signed subgrant agreements to document
           the written commitment of funds. These 27 subgrant agreements were signed
           between 132 and 781 days after FEMA awarded the grants to IDHS.

           An IDHS official said its GMS did not send grant award letters to subgrantees for
           every project. Although the GMS sent letters to subgrantees for district
           allocations, the GMS relied on project managers to send non-district award
           letters for projects such as Exercise Initiatives, Explosives Ordinance Device
           Projects, and Critical Infrastructure. The GMS was unaware that project managers
           were not sending the letters until we requested them during our audit.

           IDHS also did not issue a written commitment for the 2008 UASI funds, as
           required by FEMA, prior to signing a subgrant agreement with the City of
           Indianapolis. IDHS said it did not issue a commitment letter to the UASI because
           its award is always 80 percent of the UASI allocation. FEMA awarded the 2008
           UASI funds to Indiana on August 22, 2008. IDHS signed a subgrant agreement
           with the city on April 30, 2010, or 616 days after FEMA awarded the grant to IDHS.

           Not documenting commitment of funds to subgrantees promptly can negatively
           affect planning and delay expenditure of grant funds. The State’s Homeland
           Security Districts evaluate spending proposals through each District’s Planning
           Council and Oversight Committee. The districts then send proposals to IDHS for
           projects to which they would like to apply for grant funding. After IDHS reviews
           the proposed projects, it may award less funding to the districts than they
           requested in their budget proposals. If IDHS does not notify them promptly,
           districts may need to restart the process of prioritizing which of its previously
           proposed projects to fund. Accordingly, reprioritizing projects can increase the
           amount of time the district takes to spend the funds.

           Inventory Requirements

           IDHS’ subgrantees did not consistently manage grant-funded inventory equipment
           according to Federal regulations or IDHS internal guidance. Specifically,
www.oig.dhs.gov                                 6                                  	    OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           subgrantees did not comply with the property maintenance and physical
           inventory requirements of 44 CFR 13.32(d), Management Requirements, or IDHS’
           Administrative Plan for Grants Managed by the Indiana Department of
           Homeland Security, dated April 2009. Subgrantees also did not comply with the
           FEMA grant guidance requirement to prominently mark any equipment
           purchased with grant funding with the statement “Purchased with funds
           provided by the U.S. Department of Homeland Security” when practical.
           Subgrantees did not manage equipment as required because IDHS did not
           enforce the inventory provisions of the CFR or its own internal guidance.

           Of the 13 SHSP subgrantees we selected for review, 11 purchased equipment
           using FY 2008 through FY 2010 grant funding. None of the 11 subgrantees
           complied with CFR requirements for maintaining property records. Specifically,
           of the 11 subgrantees:

           •	 Five did not maintain inventory records.

           •	 Six provided some form of an inventory record; however, they did not
              include all information the CFR requires, such as the location of equipment,
              identification number, and condition.

           •	 Nine did not consistently mark equipment with the statement “Purchased
              with funds provided by the U.S. Department of Homeland Security.”

           IDHS did not enforce the inventory provisions in 44 CFR 13.32(d) or its own
           Administrative Plan for Grants Managed by the Indiana Department of
           Homeland Security. The State conducted onsite monitoring reviews of
           subgrantees and identified problems with inventories, but it did not always
           follow up to ensure deficiencies were corrected. Until 2012, IDHS did not have a
           formalized method to ensure compliance with inventory requirements.

           Weak subgrantee inventory management practices affect the accuracy and
           integrity of the inventory purchased with grant funds. For example, one district
           could not locate two pieces of equipment—a $50,718 generator and a $15,000
           John Deere Gator (all-terrain vehicle). The district fiscal agent responsible for
           the generator said it was stored at a fenced-in yard at a local police department.
           A police officer from that department accompanied the team to locate the
           generator, but we were unable to find it. Twelve days after our visit, the fiscal
           agent provided a photo of the generator and a close-up photo of its serial
           number. In the photo, the generator appeared to be at its assigned location;
           however, given its size, it is unlikely we would have missed it (see figure 1).


www.oig.dhs.gov                                 7                                 	     OIG-13-45
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  Figure 1: Photo of Generator 





                  Source: District 2 personnel

           As a result of these inventory deficiencies, the State did not have adequate
           inventory controls in place. Accordingly, IDHS could not ensure that assets
           purchased with grant funds were adequately safeguarded to prevent loss, theft,
           or misuse. The State might not have had ready access to vital emergency
           preparedness equipment if needed.

           Expenditure of 2008 UASI Funds

           The City of Indianapolis purchased about $3 million in equipment after the
           deadline for expending funds specified in its subgrant agreement with the State.
           The city made these purchases between 30 and 44 months after FEMA awarded
           its FY 2008 UASI funds. IDHS did not ensure the city adhered to its planned
           milestones to spend the FY 2008 UASI funds. In addition, FEMA approved two
           requests submitted by IDHS to extend the grant period of performance by 6
           months, even though the reason for the extension requests was the same. IDHS,
           as well as FEMA, should have monitored the city’s progress in obligating and


www.oig.dhs.gov                                    8                                 OIG-13-45
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            expending this funding to better ensure that the city spent the grant funds by
            March 1, 2011, in accordance with its subgrant agreement with the State.

            FEMA awarded the FY 2008 UASI grant to the State of Indiana on
            August 22, 2008. The State subsequently entered into a subgrant agreement
            with the City of Indianapolis on April 30, 2010, authorizing expenditures for the
            FY 2008 UASI funding. The agreement specified that the city obligate the funds by
            October 30, 2010, and liquidate (expend) the funds by January 28, 2011.1 The
            State amended the agreement on September 24, 2010, and extended the
            obligation deadline to December 31, 2010, and the expenditure deadline to
            March 1, 2011. Thus, the city was required to spend its FY 2008 UASI funding by
            March 1, 2011.

            On May 19, 2011, the UASI Program Manager for the city sent a request to the
            State to extend the period of performance for the FY 2008 UASI grant by 6
            months. The request cited a number of changes in UASI leadership, including a
            change to elected and appointed officials who made up 50 percent of the
            Executive Committee, which had resulted in budget reprioritization. According
            to the request, the new UASI leadership wanted to examine the purpose of UASI
            expenditures thoroughly, thereby slowing project encumbrances (expenditures).

            IDHS did not ensure the city adhered to its plan to spend the funds as outlined in
            its May 19, 2011, request for extension. The city’s request included a project-by-
            project status and its plan to exhaust the balance of funds for each project.
            According to the request, funds for all projects would be expended by
            September 1, 2011. However, the UASI did not meet these milestones, and the
            city purchased about $2.6 million in equipment between September 2011 and
            April 2012. In all, the city purchased about $3 million in equipment after the
            amended March 1, 2011 deadline.

            FEMA approved two 6-month extension requests to the grant period of
            performance submitted by IDHS. The first extended the period of performance
            until February 29, 2012, and the second until August 31, 2012. Both IDHS
            requests to FEMA cited changes in the UASI Executive Committee leadership as
            the primary reason for needing an extension. However, according to the UASI’s
            first request to IDHS, dated May 19, 2011, the pace of changes in senior
            leadership had slowed during the 8 months prior to the request. FEMA should
            have worked with IDHS to determine whether other issues affected the city’s
            ability to spend the grant and what action, if any, could be taken.

   1
    Per the agreement, obligate “includes, but is not limited to, ordering, accepting delivery, installing 

   equipment and full completion of any service agreements or contracts.” 


www.oig.dhs.gov                                          9                                                 OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In addition to not expending funds promptly, the city did not seek State
           reimbursement for its UASI-related expenditures promptly. As of
           January 25, 2012, the city had submitted requests for reimbursement of only
           $257,030 of the nearly $5 million authorized by its subgrant agreement with the
           State. The UASI Program Manager said the office responsible for submitting
           reimbursement requests to the State was apparently not doing its job. As a
           result, the city requested reimbursement from IDHS for a majority of its 2008
           UASI expenditures during February, March, and April 2012.

           These delays in expenditures may have unnecessarily delayed improvements to
           the Indianapolis Urban Area’s preparedness and security. Furthermore, the
           UASI’s mass billing of invoices to IDHS may have negatively affected IDHS staff’s
           ability to manage other grant projects. The State and FEMA should have better
           monitored the city’s progress in meeting the expenditure milestones in its
           May 19, 2011, extension request.

           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #1:

           Require the Executive Director, Indiana Department of Homeland Security, to
           include measurable objectives with realistic target dates for completion in the
           State and urban area homeland security strategies.

           Recommendation #2:

           Require that for all future grants, the Indiana Department of Homeland
           Security’s Grants Management Section comply with the requirements as stated
           in DHS Homeland Security Grant Program Guidance and Application Kits to
           obligate grant funds to subgrantees within 45 days and to document the
           commitment of those funds.

           Recommendation #3:

           Require the Indiana Department of Homeland Security to enforce the inventory
           requirement provisions of 44 CFR 13.32(d) and its own internal guidance.




www.oig.dhs.gov                                10                                       OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #4:

           Limit the number of extensions granted to the period of performance for
           Homeland Security Grant Program grants.

           Recommendation #5:

           Work with the Indiana Department of Homeland Security to develop procedures
           to closely monitor the progress of subgrantees who request extensions to the
           period of performance and hold them accountable if they do not meet
           Homeland Security Grant Program project milestones.

           Management Comments and OIG Analysis

           FEMA thanked us for the opportunity to comment on the draft report and said it
           would use the findings to strengthen the effectiveness and efficiency of its
           execution and measurement of the subject grant programs. A summary of
           FEMA’s and the State’s responses to the recommendations and our analysis
           follows.

           FEMA’s and the State’s Responses to Recommendation #1: FEMA concurred
           with this recommendation. The Assistant Administrator, Grant Programs
           Directorate (GPD), will require the State of Indiana and the Indianapolis Urban
           Area to update their respective Homeland Security Strategies to ensure that they
           include measurable target levels of performance, as well as objectives that are
           SMART. According to the State of Indiana, it is in the process of revising its
           strategy. FEMA’s estimated completion date for this recommendation is
           September 30, 2013.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 1, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has received the revised
           Homeland Security Strategies from the State of Indiana and the Indianapolis
           Urban Area.

           FEMA’s and the State’s Responses to Recommendation #2: FEMA concurred
           with this recommendation. The Assistant Administrator, GPD, will require the
           IDHS GMS to assess and streamline, where possible, processes and procedures
           for obligating funds to subgrantees. IDHS will report to the GPD the results of
           this assessment and the potential steps to be taken to expedite the obligation of
           funds to subgrantees. According to the State of Indiana, IDHS has made a

www.oig.dhs.gov                               11                                       OIG-13-45
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           concerted effort to ensure that formal letters of obligation are issued. As of
           August 2010, IDHS prepared and sent formal letters of obligation to its local
           subgrantees, State partners, and internal IDHS partners. FEMA’s estimated
           completion date for this recommendation is June 28, 2013.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 2, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has received IDHS’ assessment
           and the steps it plans to take to expedite the obligation of grant funds.

           FEMA’s and the State’s Responses to Recommendation #3: FEMA concurred
           with this recommendation. The Assistant Administrator, GPD, will require IDHS
           to submit written policies and procedures addressing the requirement provisions
           of 44 CFR 13.32(d), as well as any internal guidelines, along with documentation
           detailing how IDHS will correct the deficiencies outlined in the final report and
           communicate requirements with subgrantees more effectively. According to the
           State of Indiana, IDHS has taken many positive steps to address the equipment
           inventory concerns identified by this report, including issuing a comprehensive
           Information Bulletin to all subgrantees in January 2012. This bulletin requires
           that subgrantees conduct and submit the results of a physical inventory to IDHS
           by April 15 of each year. FEMA’s estimated completion date for this
           recommendation is June 28, 2013.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 3, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has received IDHS’ written policies
           and procedures and evidence these procedures were communicated to
           subgrantees.

           FEMA’s and the State’s Responses to Recommendation #4: FEMA concurred
           with this recommendation. On February 17, 2012, the Assistant Administrator,
           GPD, issued an Information Bulletin providing grantees with guidance on, among
           other things, the specific procedures to be followed in requesting an extension
           to period of performance. These procedures specify that grantees’ requests for
           extensions will be considered only through formal, written requests and must
           contain specific and compelling justification as to why an extension is required.
           The GPD will grant extensions only for compelling legal, policy, or operational
           changes. The Assistant Administrator, Grants Program Directorate must approve
           these requests.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 4, which is resolved and closed.

www.oig.dhs.gov                                12                                       OIG-13-45
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           FEMA’s and the State’s Response to Recommendation #5: FEMA concurred
           with this recommendation. The Assistant Administrator, GPD, will require IDHS
           to develop and submit subgrantee monitoring procedures that are compliant
           with Federal requirements and address accountability of subgrantees who
           request extensions to the period of performance and do not meet their project
           milestones. FEMA’s estimated completion date for this recommendation is
           June 28, 2013.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 5, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has received IDHS’ written
           monitoring procedures to address subgrantee accountability for meeting period
           of performance milestones.




www.oig.dhs.gov                              13                                     OIG-13-45
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the State of Indiana
   distributed and spent SHSP and UASI grant funds (1) effectively and efficiently and (2) in
   compliance with applicable Federal laws and regulations. We also addressed the extent
   to which funds enhanced the State’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its interrelated grant programs fund a range of preparedness activities,
   including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supporting programs were reviewed for compliance.

   The scope of the audit included the SHSP and UASI grant awards for FYs 2008, 2009, and
   2010. We reviewed the strategies developed by the State to improve preparedness and
   response to all types of hazards, the goals and objectives set within those strategies, the
   measurement of progress toward the goals and objectives, and the assessments of
   performance improvement that result from this activity.

   The scope of the audit included the following grants:

   Table 1. Indiana SHSP and UASI Awards FYs 2008 Through 2010

           Funded Activity             FY 2008         FY 2009       FY 2010          Total
    State Homeland Security
                                      $12,650,000 $11,633,500 $11,326,441 $35,609,941
    Program
    Urban Areas Security
                                       $7,478,500     $7,104,700    $7,104,699 $21,687,899
    Initiative
                  Total               $20,128,500 $18,738,200 $18,431,140 $57,297,840

   Source: DHS-OIG





www.oig.dhs.gov                                  14                                       OIG-13-45
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We interviewed officials from the State Administrative Agency, IDHS. We reviewed
   various State documents, such as the Administrative Plan for Grants Managed by the
   Indiana Department of Homeland Security, dated April 2009. We then documented the
   flow of transactions and events, including the key controls over the end-to-end process
   of developing the State Homeland Security Strategy, preparing investment justifications,
   and the grant transaction flow (see appendix F).

   We judgmentally selected and visited 13 subgrantees to whom IDHS awarded SHSP
   funding in FYs 2008, 2009, and 2010. These 13 subgrantees included 10 local
   jurisdictions and 3 state agencies. We visited the following subgrantees:

   Local Jurisdictions
      • City of Elkhart
      • City of South Bend
      • Elkhart County
      • Kosciusko County
      • Starke County
      • City of Columbus
      • Bartholomew County
      • Lawrence County
      • City of Evansville
      • Vanderburgh County

   State Agencies
       • Indiana State Police
       • Indiana National Guard
       • Indiana Board of Animal Health

   The 10 local jurisdiction subgrantees were located in 3 of the State’s 10 Homeland
   Security Districts. We chose the two districts that received the largest funding
   allocations (District 2 and District 10). Although ranked eighth in the amount of its
   allocation, we chose a third district (District 8) where prior IDHS site visits had disclosed
   several findings. These three districts were geographically dispersed throughout the
   State (see appendix E). We met with officials from each subgrantee in these districts.
   We also judgmentally selected and reviewed three State agencies.

   To review SHSP expenditures, IDHS provided OIG with subgrantee agreements, requests
   for expenditures, and associated vendor invoices from its Indiana Grants Management
   System for each subgrantee. We reviewed 100 percent of these documents prior to
   visiting the subgrantee. We then created data collection instruments to summarize our
   tests of whether funds expended for equipment purchases and exercises complied with

www.oig.dhs.gov                                 15                                         OIG-13-45
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   grant requirements and State-established priorities. During the site visits, we
   interviewed responsible officials, reviewed additional documentation supporting State
   and subgrantee management of grant funds, and we inspected select equipment
   procured with grant funds.

   We judgmentally selected equipment from subgrantee inventory records, requests for
   expenditure, and vendor invoices. We determined the validity of the inventory records
   and the condition of the equipment. We also determined whether the equipment
   purchased was approved in the subgrant agreement with the State, and whether the
   equipment was listed on FEMA’s Authorized Equipment List. We physically inspected
   the following equipment:

   Table 2. Dollar Amount of Equipment Inspected by DHS OIG

                                   $ Amount               $ Amount         Percentage of
         District/State
                                   Equipment              Equipment         Equipment
       Subgrantee/UASI
                                   Purchased               Inspected         Inspected
            District 2             $2,114,413              $661,130             31%
            District 8             $1,359,667             $303,014              22%
           District 10             $2,235,427             $706,801              32%
          State Police             $ 706,823              $562,145              80%
    Board of Animal Health         $   35,411             $    8,078            23%
       City of Indianapolis        $3,252,282             $2,725,913            84%
             TOTAL                 $9,704,023            $4,967,081             51%


   Source: DHS OIG Analysis and Inspection of Equipment.

   We performed limited transaction testing of UASI expenditures. At the time of our first
   visit to the Indianapolis Urban Area in February 2012, the City of Indianapolis had
   requested reimbursement for $257,000 in expenditures. When we returned in May
   2012, IDHS was in the process of reviewing about $4 million in reimbursement requests.
   Due to time constraints and IDHS’ ongoing processing of invoices, we limited our review
   to interviewing program officials about their strategic planning and risk analysis process
   and inspecting selected equipment purchased with UASI funding.

   We relied on data processed by the Indiana Grant Management System that contained
   information on the grant funds awarded from FY 2008 through FY 2010. We conducted
   limited tests on this data and compared it with source documentation to ensure that the
   data were sufficiently reliable to be used in meeting our audit objective.

www.oig.dhs.gov                                 16                                      OIG-13-45
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this performance audit between December 2011 and August 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              17                                      OIG-13-45
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report

                                                                                      U.S. I}rplrt mcnl of Ilomrlllnd Sri:urily
                                                                                      Wu hinglOl1. DC 20-172




                                                    JAN 1 6 1013


             MEMORANDUM FOR:                Anne L. Richards
                                            Assistant Inspector General ror Audits
                                            Office or Inspector General

             FROM:                     /- David J. Kaufman -;;i,,:......   ~~­
                                      rr- Associate Administrator ror
                                            Policy. Program Analysis and International Arfairs

             SUBJECT:                       Response to G IG Draft Report: ''The State of I"dialla 's
                                            Managemeflt a/State Home/and Sec/wiry Program and Urb(m
                                            Areas Security Initia/iI'c Grams Awarded During Fiscal Ycws
                                            2008 Through 20/0"· - OIG Project '0.12-100-AUD-FEMA


             Thank you ror the opportunity to comment on thc draft report. The findings in the report will be
             used to strengthen thc effectivcness and efficiency of how we execute and measure our
             programs. We recognize the need to continue to improve the process, including addressing the
             recommendations raised in this report, Our responses to the recommendations are as follows:

             OIG Recommendation # 1: Require the Executive Director, Indiana Dcpartment or Homeland
             Security, to include measurable objectives with realistic target dates for completion in the State
             and urban area homeland security stratcgies,

             FEMA Respo nse: FEMA concurs with this recommendation, The Assistant Administrator of
             the Grant Programs Directorate (GPO) shall require the State or Indiana and the Indianapolis
             Urban Area to update their respective Homeland Security Strategies. ensuring the strategies
             include measurable target levels of performance, as well us objectives that life specific,
             measurable, achievable, results-oriented, and time-limited, and an appropriate evaluation, State
             of Indiana and the Indianapoli s Urban Area shall submit the revised Homeland Security
             Strategies to GPO for review within six months after issuance of the 010 final report.

             FEMA requests thi s recommendation be reso lved and open pending the complet ion, subm ission
             and review of the strategy revisions. The estimatcd completion date (ECO): September 30,
             2013.

              OIG Recomme nd ation #2: Require that for all ruture grants, the Indiana Department or
              Homeland Security's Grams Management Section comply with the requirements as stated in
              DHS ' Homeland Security Grant Program Guidance and Application Kits to obligate grant funds
              to subgramees within 45 days and to document Ihe commi tment of those funds.




www.oig.dhs.gov                                                  18                                                               OIG-13-45
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




             FEMA Response: FEMA concurs with this recommendation. The Assistant Administrator of
             the Grants Programs Directorate shal1 require Indiana Department of Homeland Security's
             Grants Management Section to assess and streamline (where possible) processes and procedures
             for obligating funds to sub grantees. The Indiana Department of Homeland Security shal1 report
             to GPO the results of this assessment and potential steps to be taken to expedite the obligation of
             funds to the subgrantees within 90 days after the issuance of the OIG final report.

             FEMA requests this recommendation be resolved and open pending the completion of the
             corrective action. The ECD: June 28, 2013.

             OIG Recommendation #3: Require the Indiana Department of Homeland Security to enforce
             the inventory requirement provisions of 44 eFR 13,32(d) and its own internal guidance.

             FEMA Response: FEMA concurs with this recommendation, Within 90 days of issuance of the
             final report. the Assistant Administrator of the Grant Programs Directorate shall require the
             Indiana Department of Homeland Security to submit written policies and procedures addressing
             the requirement provisions of 44 CFR 13.32(d) as well as any internal guidelines along with
             documentation detailing how the Indiana Department of Homeland Security will correct the
             deficiencies outlined in the final audit report and communicate requirements with subgrantees
             more effectively.

             FEMA requests this recommendation be considered resolved and open pending the corrective
             actions stated above. The ECD: June 28, 2013.

             OIG Rec:ommendation #4: Limit the number of extensions granted to the period of
             perfonnance for Homeland Security Grant Program grants.

             FEMA Response: FEMA concurs with this recommendation. FEMA notes that per Secretary
             Napolitano's guidance issued on February 13,2012 titled "Guidance 10 State Administrative
             Agencies to Expedite the Expenditure o/Certain DHSlFEMA Grant Funding, " and subsequent
             lnfonnation Bulletin (IB) No. 379, extensions to the initial period ofperfonnance identified in
             Homeland Security Grant Program grants will be considered on1y through fonnal, written
             requests to the grantee's respective GPO Program Analyst and must contain specific and
             compelling justifications as to why an extension is required. Extensions are granted on1y due to
             compelling legaJ , policy, or operational challenges. FEMA's enforcement of this policy has
             limited the number of extensions granted.

              FEMA believes this satisfies the intent of the recommendation and requests this recommendation
              be resolved and closed.

              OIG Recommendation #5: Work with the Indiana Department of Homeland Security to
              develop procedures to closely monitor the progress of subgrantees that request extensions to the
              period of perfonnance and hold them accountable if they do not meet Homeland Security Grant
              Program project milestones.




                                                              2




www.oig.dhs.gov                                                19                                                  OIG-13-45
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




             FEMA Response: FEMA concurs with this recommendation. Within 90 days of receipt of the
             issuance of the OIG report, the Indiana Department of Homeland Security is required by the
             Assistant Administrator of the Grants Programs Directorate to dcvelop and submit subgrantee
             monitoring procedures that are compliant with federal requirements and address accoWltability
             of those subgrantees that request extensions to the period of perfonnance and do not meet their
             project milestones.

             FEMA requests this recommendation be resolved and open pending submission and FEMA
             approval of the stated corrective actions. The ECD: JWle 28, 2013.

             Thank you for the work that you and your team did to better infonn us throughout this audit. We
             look forward to the final report. Please direct any questions regarding this response to Gary
             McKeon, FEMA's Chief Audit Liaison, at 202-646-1308.




                                                             3




www.oig.dhs.gov                                                  20                                            OIG-13-45
                                                   OFFICE OF INSPECTOR GENERAL
                                                          Department of Homeland Security


   Appendix C
   State of Indiana Management Comments to the Draft Report

                                  MITCHEll E. DANIELS, Jr., GovornorSTATE OF INDIANA
                                  L eadership 'or M SMre and Secure I ndi Mna

                                                                                                               JotJoph E , WalntJcott, Jr., EXOG utivo Direc tor
                                                                                                                    Indiana Department o( Nomeland Security
                                                                                                                                        Indian. C;ovemtrlflnt IJtJnter:iouth
                                                                                                                                             302 w....t W_""""on Slmol
                                                                                                                                                   IndiDtUJPOIi$. IN 49204
                                                                                                                                                             3f7-232·3IJEIO

         D=e:", I,IC, 10,20 12

         M " Anne R ic h ords
         A!':.~i!<;lnnt Im:pcctnr Ocncml for Andi t!<;
         Office of Ioll:peelo r GCllerol; Deportment o fHo'lielond Security
         245 M",my Drive, SW, n\lildin g 4 IO/Moi l St£)P 2t.OO
         Was hinSto n, DC 20528

         D .."" M". Rid", ...I".

         TI,i1\; lette r is in ,-'::S I)()Il;wl to th e Audit Report o rt h e State or I"d iana' s M a n agement of State I lol1lela" d
         S ccu rity P''OSI'OI1l a nd U rbon Arens Security Ini t int lve Grnnrs Awnnlcd during F iSCJII V e lln; 2008 throu g h
         2012 (010 Project No. 12- 100 AUD Fl:iMA). Purs uant to Public Lnw 110-53, Implementing
         R ...""ulI lI lI ..lIllllli""" "r l.it.. 911 I CO lllllli!':.<;ion A.:t 01"2007, a s a mcndoxl, II I·cquin:d audit was conduetcd hy the
         Ik llll1111lcnt of H o nll:llInd Secu rity (DHS) Office o fln GllCc to r GeneruT (O IG) for the aforcnlllntioned G rants;.



              T ill'; 1",jill"" Slrnl.eW" rv, H UII".h",u St:c •..-ity WIIS <It:vt:luIJ"u ,,,,<I ".,jJn)v"u IJ:,,, ...... I ( >II I"., H UIII., I"",1
              S.:e urily "n:,;id':Iltilil Dirvetiv<:lHSPD-8 rc l cll ~cd o n Decemoor 17, 2003.

              T hi!: IIlcliAIiA ~ltlT C Srmlcgy WA!'; Ihe n e irculmed for review nnd inplll hy All s lAk e h o lcieno: in nee emher
              2007. Th o Indi ona Stllla SlI'a togy WAS /inal izcd, approv oxl and adopted b y tha Indiano Cou nte,' Torror it;1lI
              ""d SeclIl";l y Cvu""i1 i" Fd.>fl"" y ur200R. At 11",1 ti" ." FEMA· ,., 1O" l'fu ... ,,1 vrt l ,,, '"dill'''' Sh.te Slf""'~
              lipec ifi c milell;t(llle1l- and/or tllrset dlltes were n o t n requirement, Mony of the S h 'lltcSic Gools nnd
              Obj.,cti ... c>j do h ave: spec ifi c dllles tor comp letion, however by their very na l uN , lI1an y ol" tlu:sc Rou l:\ and
              nhj ccTi vc.~ Are nmlti_yt'"..n r pmjec:ll';. Whi le vArion!'; nl'lpccl!1; n fn prnj cci mA y h e eomrle re ci wiTh one yenr o f
              fund ing., th o co mplelion ol' lhe entire projoci wos re l ialll UllOli fundi ng lrom fulure g rant yea rs.

              The CI"'Nllt IndiAnll- Slnlt(OSY (0" Homeland Security il: l>¢i"S re ... is ed ond updll ted at th is time. IDHS
              plnm. te) s"b",;1 Ihi:s d oc ument to FEMA 101' their I'Cview n nd apilrova l wit h in Ih e li rst qUArter 0 1"20 13
              flIul will inc illne 1I-p oo ifi e, JlI"Ojecl oriented memmmh ic mi les lOn=,

         2.   arm" d     ""'rtf 1 dl"r

              The Tml,,,,," Dcpurlmcnt or H o m .:.IOlld Secu"i ty (IOHS) IlCkIl OwlcdJl.(o9 thllt 101'11101 awor d l(Ou(Orn of
              o hl iCfllion were IlOt ~n l to Ollr g mllt .c:n h-recipiclll1/. for the 2 00R find 2009 ' ·lo l11clnl101 Sccurity Omnt
              Program ( H SG I') grunt alVard!: to includ(O th e Urban Area G Security Initi lltive (UAS I) w ithin the 45-dlly
              li,"(:fuII"c. We "Iso uek llowled g c tlmt Itln n nl oward leller.c: "robli ga li o n we,'e no t pro vided lo r our
              in tc n ud lDHS proj ects and os well as In dialltl SUlle A gency pOl1ncn .

              Th is oversight o n Ihe port of TDHS was out l ined 10 IDHS as n resu lt of n m onitoring vi.c:it in t h e s Ulnmer
              0 1'2010. 111<:11"(010,,(0 , as pllrt of the m oni to r illg rC fK)11, IIJHS h aG made II cOllcerted eno rt to rectity Ihil:
              mUllit o rill g ousc,·..."li" " . A s or Aug UST or2010, IOHS hilS Ilrepn, ed and se nt ro rmllt Telte,'s o f o blignlioll



                                                               An Cqual OpportunHy Cmployt'l'r




www.oig.dhs.gov                                                                         21                                                                                 OIG-13-45
                                             OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




               to our local s ub-recipients as well as our state partners and our own internallDHS partners. We fee l as
               though we have corrected (his issue by providing the obl igation letters within the 45-day requirement for
               the2010, 2011 and 2012 HSGP gronls.

               The UASI grant award is somewhat different and is a process based on a committee consisting of
               members of the slate and the Indianapolis Urban Area (including both Hamilton and Marion Counties).
               The award and obligation of the UASI grant funding is based on the decisions made by the members of
               this group. While this docs not negale the need for a fonnal obligat ion letter, all local UASI panners arc
               the prime decision makers for approved UASI initiati ves.

          3.   Egflipmeltl lll veutorie.\'

               The Indiana Depanment of Homeland Security realized a great need for an employee in the Grunts
               Management Bronch solely dedicated to the daunting task of grant monitoring. This staff position was
               created and the fi rsllDHS Grants Compliance Monitor was hired in January 2009. During the initial
               months of this undertaking, the entire grant monitoring program was created, vetted and approved by
               JDHS management. This process culminated in the "Compliance Monitoring for Preparedness Grants
               Managed by the iJldiana Depanmcnt of Homeland Security" origina lly writtcn in May 2010 and revised
               in September 20 I I.

               Many positive steps have been taken to address the equipment inventory concerns in the Inspector
               General's Audit Repon.

                        In 2008, IDHS created an Adm inistrative Plan for Gmnt Programs Administered by the Indiana
                        Department of Homeland Security, requiring al l grantees to conduct a physical equipment
                        inventory and submit the repon to IDHS with their quanerly progress repon due on April 15~· of
                        each year,

                        An equipment inventory spreadsheet tool was created in latc December 2010 by our grants
                        compliance monitor to assist sub-recipients. This tool contained all of the information fields as
                        required by 44 CFR 13.32(d) and is available for usc by our sub-rec ipients. This tool was not
                        required to be used by thc locals as long as they already had an cstablished system for
                        inventory/equipment control and that it too met all of the fede ral inventory requirements.

                   •    In the summer of2011, IDHS launched a new module within the Indiana Gr<lI1ts Management
                        System (iGMS) called the Equipment Inventory Module. This tool was creatcd in rcsl>onse to
                        requests from our sub-recipients and provides a standardi7.ed process for assistance with the
                        inventory/equipment control documents requirement. The Equipment Inventory Module has
                        been modified/changed as suggestions from our local panners have used the module. Again,
                        th is is a tool for our grant sub-recipients to usc at their discretion.

                        In January 20 12 a comprehensive Information Bu lletin No. 12·01, Subject: Equipment
                        Inventory Requirement for Preparedness Grants, was disseminated to all of our sub-recipients.
                        This Infonnation Bulletin outlined the requirements ofCFR44 I 3.32(c) with an annual due date
                        of April 15111•

                        For 2008 and 2009 HSGP, the Grant Guidance Document indicates that lDHS and sub-grantecs
                        are required to:
                             o 5.10 - Equipment Marking. Applicants are advised that, when practicable, any
                                equipment purchased with grant funding shall be prominently marked as follows:
                                "Purchased with funds provided by the U.S. Department of Homeland Security."

                        For 2010 IISGP the Gront Guidance Document indicates the following is the requirement:



                                                    An Equal Opportunity Employer




www.oig.dhs.gov                                                       22                                                     OIG-13-45
                                              OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security




                            o   5.10 - Equi pment Marking. Awardees may consider marking equipment in the
                                fo llowing manner, "Purchased with funds provided by the U.S. Department of
                                Homeland Security," in order to fac ilitate their own aud it processes, as well as Federa l
                                audits and monitoring visits, wh ich may result from receiving federal fu nding.

                  •    Clearly the above cited documents indicate that equipment marking requirements is required
                       "when practicable" (2008/2009 HSGP) and each sub-recipient "may considcr marking
                       equipment" (2010 HSGP). It appears there is an allowance of discretion on the pan of our sub-
                       reci pients for the purpose o f equipmcnt marking.

         4. PerfOrmauce Perioll ExlemiOlI.f

              '111e Indiana Department of Home land Security recogn izes thnt requests fo r extensions to performance
              periods appear to be excessive. To remedy that situation, lOl lS has instituted a poliey that "tightens up"
              the justificat ions for extcnsions ofpcrformance periods and also limits the number of approved
              performance period extensions.

              Specifically, lDHS Infonnation ])ullelin 12.G005 dated October 3, 2012 (attached) definitively outl ines
              the pcrfonnancc periods for 201 1- 12 HSGP fu nds and 201 [ EM PG funds and all subsequent grants.

              For 20 I I HSGP grants the following applies:
                       Perfomlance periods for this grant will not be approved past the dale of March 1,2013.
                       A thirty (30) day extcnsion (March 31, 2013) may be approved upon request to the Grants
                       Management Branch Chief.
                       Any request for an extcnsion of the performance period past this timc will requ ire the requester
                       to submil their justification and complete and submit a spending plan.
                       If the extension is approved, the req uestor will receive notification of the ap proval through
                       iGMS.

              For the 2012 HSGP grants the following applies:
                      An in itial six (6) month performance period will be approved.
                      A th irty (30) day extension may be approved upon request to the Grants Managemclll Branch
                      Chief.
                      Any request for nn extension of the perfon nance period past this time will require the req uester
                      to subm it their j ustification and complcte nud submit a spending plan.
                      If the extension is approved, the requestor will reecive notification o f tile approva l through
                      iGMS.

              IDHS fcels that these requirements for accountability will alleviate the need to request I>crfonnnnec
              period extensions to U.S. Department of Homeland Security.

         5.   S,Ib-Rec;II;elll Gmll! Pr0l!re.\·.\·

              In addition to the limitations of tile perfonnance period for HSGP grants, project manager (PM)
              meetings are held month ly. These meetings provide Grants Management nn opportunity to meet with
              project managers to discuss thc progress of the grant funds awarded to them as project managcrs. This
              meet ing also outlincs the spending rates of each project managcr's sub-recipients. T he Grants
              Management Branch Chief uses this process to emphasize to the PMs the need to contact their individual
              sub-recipients and havc a discussion with them regarding thei r spending rales and address any issues that
              the sUb-recipicnt may be facing such as a long bidding process, selection of vendors and possi ble
              equipment manufacture and/or shipment delays. All ofthcse discussions with the sub-recipients, the
              PMs and the Grants Management Branch Chief provide a clear picture of the status of grants. IDHS




                                                      An Equal Opportunity Employer




www.oig.dhs.gov                                                           23                                                  OIG-13-45
                                                  OFFICE OF INSPECTOR GENERAL
                                                        Department of Homeland Security



              fc.::: ls Ihi s s le p goes n very long way in crenCing nn nllllosphere ofn<::<::Ollnl nbility for oi l of o u r gmnl
              l'o;:o..ipi O;: l lb.

         ' r he Indiono l.)op~rt lilent ol"l-lomelAnd ~ecu rily Appreciates t h e oppoTh l11 ity to respond to t he
         l-ecom mendU l io n s a s o utli ned in the Department of llo me:land Se:e:\lrity. Offi<::e: ofln.spee:tor Gcrn;;r... I's Audi t
          Report. We bc:licvc tlutll!!c posilive lIud prol:.rc:ssive sleps 1011:) has lakeu re(;C;nlly lind over the IMst few
         yea rs shows atlr commitment to a gran. progmm . hal is ' ranSp;'Iren' ami ''';COIIIII ... blc to 110' only Ollr .'S1Ib-
         .'ooipients, but to the t~xp3yer .

         S hould you have any qu cstions o r requ ire Illn he r in fonnat ion. plea!Se feel free to c;on tltc1 me or our G", nts
         M~nase(11ent            Uranch (.;h'ef, KAche l Woodall.



         ";"=~!)y~
         Juseph U. Wl1inSU1lt                                       '   ~
          ~XCCUliYC        O irect or
          Indiana i.>ep'l rtmeOl 01 Ilomel;m d !':Oec u nty

         A n achmcnt




                                                            An Equ&1 Opportu nity Empk>y(lr




www.oig.dhs.gov                                                                24                                                           OIG-13-45
                                              OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security




                                     Indiana Department of Homeland Security

                                     Information Bulletin
                  Date:              October 3, 20ll

                  Bulletin No:       12.GOO5

                  To:                Al l District COordinators
                                     AIIIDHS Staff
                                     AlllDHS field Services Staff
                                     Al l Eml.'rgcnL"y M"n<lgcrncnl O;rL'Clor s

                  from :             Rill:hel WOOdill1
                                     Branch Chief, G rants Managemen t

                  Subject:           Performance Pertod End D a tes

                  Purpose
                  T he purpose of this Inform"tlon Bu llet in is to p r ovine guidance and InfolTllatlon regarding the
                  poliev for submission Clnd ClpproVClI of Performance Perioo End Oa tes.

                  Bad<t:rou.,d
                  In the past, the Indiana Departrne.,tof Home la n d Security I IDHS) has required that sub -
                  recip ients of g rant funds p rovide notes/justifica ti o ns when requestins an extension of the
                  perfo rma nce pe r Iod end date. ThIs Information Bulletin upda tes that requIrement.

                  Additional Guidance

                  Beginning w it h the 20:11. 'SoMte Homeland s.c.: u rity Gran t ISHSPj th e following will <lpply:

                                 o    Pe rformanc e periods f orthls grant 11'1111 not be approved past the dilte of Milrch 1 , 2013.
                                 o    A thi rty (30) day extension IMarch 31, 2013) mily be approved upon reques t to the
                                      G rilnt s Management Branch Chief.
                                      Any request for an extension o f the performance period p ast this time will requ ire t he
                                      requestor to submi t thei r Justification and comp le te and submit a spending plan. The
                                      spend i ng pla n form to be comp le t ed Is attac h ed to tills Inform a tion Bullet1n. Vour
                                      spending plan will be uploade d t o th e blJdget/project in question.
                                      If your exte nsion is approved, you will rec eive notification of the approval through
                                      IGMS.

                  For the 2011 Emergency M.magerroent Pefformance Gra nt (E MPG) the followi.lg w ill apply:

                                 o    The Performa n ce Period for t his sra n t will n ot be approved past the da t e of March 31,
                                      2013.
                                 o    A thirty (30) dilY extensi on (Ap r i l 30, 201 3 ) may be approved upon request t o the Gra nts
                                      Milnagement Bram:h Chie!.
                                      Any req uest for an extens ion of t h e performance pe r io d past th is time wi ll require the
                                      reque stor to su bmit th e ir Jus tific a t Ion a nd compl e te and submit a spendin g plan. The




www.oig.dhs.gov                                                              25                                                          OIG-13-45
                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                   spending pl:oln form to be completed ~ ::I1t;>ched to this Information Bulletin. Your
                                   ~pendinS p l::ln w ,1I b e uplaaded ta I he budget/praject in questioo.
                              a    If you r eJltensb n is app ro~'cd, yO .... lIoIi ll receive noti ficatfon af the LlpprovLlI t hroush
                                   IGMS.

                  Forthe 2012 Siot c Homeland Security Gran t (SHSP) and the Eme rgency Man asement Pe r formance
                  G •.an t I EMPG) t he followi ns will apply:

                               o   An Initial si)ll (6) month$ performa n ce per iod will be appro_d .
                              o    A th i. tv {:'KI) day ext ensi<J n ma y b.e approved upon requ~t to t~ Grant" M;:on;:oeP.l"npnt
                                   B.ranch Chief.
                              o    AIlV requp.$t h;lr ;:on ~tenslon o t the performance pe r iod past th is. t im e wfU requ ire the
                                   re quest or to su bm it t heir Justlfi:atlon ilnd com plete and su b mit a Spend ' fig pl an. The
                                   spen d i ng plan form to be completed is anacf1ed to this Information BUlletin. Your
                                   spen d ing plan will be uploaded 10 t he budg~l/proJect In question.
                              o    If vour elo"tensinn is approl'ed, 'fDu "",!II /"@ceiYe no t if icat ion of the approva l th roug h
                                   IGMS.
                  Gen eral

                  If plan~ are IlOt received at Grants(!Ddh i In.gov by the assigned deadli ne, penaltl(!~ w ill be aSli (!ssed.
                  penalties may Indude Item s such as pladng a renr lctlon on creatinR RFEs and/or de ' obli Kation of rund5.

                  Q Ue5tlons
                  Please dirt!(;t Qutl~liv"~ ,t'!ita,dlllg lhls p l ogram to you, Distlil;t Emergency Manageillent Fie ld
                  Courd irfatol Of it member of t he IDHS Granl5 Man agement ..-t aff. Grants Management may be
                  leach ed by e-mail atgr~nts @dhs .in.I!ov or by p h one ! t 3 17-234-5917.




                                                                                                                                Page 2 of 2




   �





www.oig.dhs.gov                                                             26                                                                OIG-13-45
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Description of Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. It encompasses several interrelated Federal grant programs that
   together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable
      costs for the urban areas are consistent with the SHSP. Funding is expended based
      on the Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (only applicable for FY 2010)




www.oig.dhs.gov                              27                                	     OIG-13-45
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   State of Indiana Homeland Security Districts




   Source: Indiana Department of Homeland Security. 





www.oig.dhs.gov                            28                   OIG-13-45
                    OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


   Appendix F
   Grant Transaction Flowchart




www.oig.dhs.gov                    29                    OIG-13-45
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Linda Howard, Director
   Robert Ferrara, Audit Manager
   Gary Crownover, Program Analyst
   Kathleen Hyland, Auditor
   Kendra Kellett, Program Analyst
   David Kinard, Auditor
   Ebenezer Jackson, Program Analyst
   Kelly Herberger, Communications Analyst
   Katrina Bynes, Independent Referencer




www.oig.dhs.gov                              30                 OIG-13-45
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   FEMA Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  31                        OIG-13-45
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
